No. ______
In the

Supreme Court of the United States
__________________

NOBLE COOPER; NORMAN COOPER, Estate of;
JENNIFER COOPER; NATHAN COOPER; CARLY LOPEZ,
Individually and as Next Friend of NASON COOPER
and NEVON COOPER, Minors; NASON COOPER, a
Minor; NEVON COOPER, a Minor,
Petitioners,
v.
OFFICER OLIVER FLAIG; OFFICER ARNOLDO SANCHEZ,
Respondents.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________
PETITION FOR WRIT OF CERTIORARI
__________________
EDWARD L. PIÑA
Counsel of Record
MATTHEW N. GOSSEN
Edward L. Pina & Associates, P.C.
8118 Datapoint Drive
San Antonio, Texas 78229
(210) 614-6400
epina@arielhouse.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
QUESTION PRESENTED
Norman Cooper, a 33-year-old black father, was
killed in his parents’ home by officers Flaig and
Sanchez after they tased him nine times in a threeminute period. Norman was experiencing an acute
mental health episode and under the influence of drugs
but was unarmed, respectful, and never attempted to
make physical contact with anyone.
Norman’s wife and family filed this suit for
violations of his constitutional rights resulting in his
death. The district court denied the officers’ qualified
immunity as to the excessive force claims and set the
case for trial. The officers then filed an interlocutory
appeal with the Fifth Circuit. The Fifth Circuit
reversed and rendered determining that the petitioners
could not show that the law was so clear that no
reasonable officer would have used the same extreme
force.
Qualified immunity often leads to confounding
decisions that defy our most basic notions of justice.
There is no accountability. The people’s fundamental
rights are eroded. Like Norman Cooper, too many lives
have been unnecessarily lost.
The question presented is:
Should the Court eliminate or significantly revise
the judicially created doctrine of qualified immunity to
protect the people’s core constitutional rights and
assure accountability of the people’s public officials?

ii
PARTIES TO THE PROCEEDING
Noble Cooper, individually and as administrator of
the Estate of Norman Cooper, deceased, Estate of
Norman Cooper, Jennifer Cooper, Nathan Cooper,
Carly Lopez, individually, and as next friend of Nason
Cooper and Nevon Cooper, minors, and Nason Cooper,
a minor, and Nevon Cooper, a minor, are petitioners
here and were plaintiffs-appellees below.
Petitioners are not corporations as defined by
Rule 29.6.
Edward L. Piña is lead counsel of record for
petitioners here and Edward L. Piña and Matthew N.
Gossen were counsel for plaintiffs-appellees below.
Matthew N. Gossen will be submitting his application
for admission to the Supreme Court Bar near the time
of the filing of this petition.
Officer Oliver Flaig and Officer Arnoldo Sanchez are
respondents here and were defendants-appellants
below.
City of San Antonio and Interim Police Chief,
Anthony Trevino, were defendants at the district court,
but are no longer parties to these proceedings.
Nathan Mark Ralls is counsel of record for
respondents here and was counsel for defendantsappellants below.

iii
STATEMENT OF RELATED PROCEEDINGS
• Cooper, et al. v. Flaig, et al., No. 18-50499 (5th Cir.)
(per curiam opinion issued and judgment, reversing
and rendering, entered Oct. 8, 2019; mandate issued
Oct. 30, 2019).
• Cooper, et al. v. City of San Antonio, et al., No. 5:16CV-77-DAE (W.D. of Texas – San Antonio Division)
(memorandum of decision issued May 15, 2018; final
judgment entered Oct. 30, 2019).
There are no additional proceedings in any court that
are directly related to this case.

iv
TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING. . . . . . . . . . . . . . ii
STATEMENT OF RELATED PROCEEDINGS . . . iii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . vi
PETITION FOR WRIT OF CERTIORARI . . . . . . . . 1
OPINIONS BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATUTORY PROVISION INVOLVED . . . . . . . . . 1
STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A. Factual Background . . . . . . . . . . . . . . . . . . . . 2
B. Proceedings Below . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE PETITION . . . . 8
Qualified Immunity Should Be Re-examined And
Refocused In A Manner That Protects The
Constitutionally Guaranteed Rights of Citizens
And Encourages Accountability Of Public
Officials. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
A. Judicial development and creation of
qualified immunity. . . . . . . . . . . . . . . . . . . . . . 8

v
B. Qualified immunity lacks statutory support
and is contrary to governmental immunity
principles of the Founding Era. . . . . . . . . . . 19
C. Public Policy, officer accountability, and
implicit bias. . . . . . . . . . . . . . . . . . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35
APPENDIX
Appendix A Opinion and Judgment in the United
States Court of Appeals for the Fifth
Circuit
(October 8, 2019) . . . . . . . . . . . . . . App. 1
Appendix B Order: (1) Granting in Part and
Denying in Part Officers’ Motion for
Summary Judgment (Dkt. # 53); and
(2) Granting the City’s Motion for
Summary Judgment (Dkt. # 54) in the
United States District Court for the
Western District of Texas, San
Antonio Division
(May 15, 2018) . . . . . . . . . . . . . . . App. 9
Appendix C Summary of Norman Cooper’s
Ext e r n a l I n j uries from t he
Bexar County Medical Examiner’s
Office . . . . . . . . . . . . . . . . . . . . . . App. 70
Appendix D Declaration of Nathan Lee
Cooper . . . . . . . . . . . . . . . . . . . . . App. 71

vi
TABLE OF AUTHORITIES
CASES
Anderson v. Creighton,
483 U.S. 635 (1987). . . . . . . . . . . . . . . . . . . . . . . 18
Anderson v. Myers,
182 F. 223 (C.C.D. Md. 1910) . . . . . . . . . . . . . . . 26
Ashcroft v. al-Kidd,
563 U.S. 731 (2011). . . . . . . . . . . . . . . . . . . . . . . 18
Beckwith v. Bean,
98 U.S. 266 (1878). . . . . . . . . . . . . . . . . . . . . . . . 24
Board of Cty. Comm’rs of Bryan Cty. v. Brown,
520 U.S. 397 (1997). . . . . . . . . . . . . . . . . . . . . . . 29
Brosseau v. Haugen,
543 U.S. 194 (2004). . . . . . . . . . . . . . . . . . . . . . . . 7
Butz v. Economou,
438 U.S. 478 (1978). . . . . . . . . . . . . . . . . . . . . . . 14
Estate of Armstrong v. Village of Pinehurst,
810 F.3d 892 (4th Cir. 2016). . . . . . . . . . . . . . . . . 7
Ex Parte Young,
209 U.S. 123 (1908). . . . . . . . . . . . . . . . . . . . . . . 11
Forrester v. White,
484 U.S. 219 (1988). . . . . . . . . . . . . . . . . . . . . . . 28
Hardt v. Reliance Standard Life Ins. Co.,
560 U.S. 242 (2010). . . . . . . . . . . . . . . . . . . . . . . 20
Harlow v. Fitzgerald,
457 U.S. 800 (1982). . . . . . . . . . . . . . . . . . . passim

vii
Henson v. Santander Consumer USA Inc.,
137 S. Ct. 1718 (2017). . . . . . . . . . . . . . . . . . . . . 22
Imbler v. Pachtman,
424 U.S. 409 (1976). . . . . . . . . . . . . . . . . . . . 13, 20
Johnson v. Jones,
515 U.S. 304 (1995). . . . . . . . . . . . . . . . . . . . . . . . 7
Kisela v. Hughes,
138 S. Ct. 1148 (2018). . . . . . . . . . . . . . . . . . . . . 33
Little v. Barreme,
6 U.S. (2 Cranch) 170 (1804) . . . . . . . . . . . . . . . 23
Magwood v. Patterson,
561 U.S. 320 (2010). . . . . . . . . . . . . . . . . . . . . . . 22
Malley v. Briggs,
475 U.S. 335 (1986). . . . . . . . . . . . . . . . . . . . 18, 20
McDonald v. United States,
335 U.S. 451 (1948). . . . . . . . . . . . . . . . . . . . . . . 31
Mitchell v. Forsyth,
472 U.S. 511 (1985). . . . . . . . . . . . . . . . . 16, 17, 35
Mitchell v. Harmony,
54 U.S. (13 How.) 115 (1851) . . . . . . . . . . . . 23, 24
Morrow v. Meachum,
917 F.3d 870 (5th Cir. 2019). . . . . . . . . . . . . . . . 26
Murray v. The Schooner Charming Betsy,
6 U.S. (2 Cranch) 64 (1804) . . . . . . . . . . . . . . . . 23
Myers v. Anderson,
238 U.S. 368 (1915). . . . . . . . . . . . . . . . . 10, 25, 26

viii
Owen v. Independence,
445 U.S. 622 (1980). . . . . . . . . . . . . . . . . 20, 30, 31
Pearson v. Callahan,
555 U.S. 223 (2009). . . . . . . . . . . . . . . . . 17, 18, 31
Pierson v. Ray,
386 U.S. 547 (1967). . . . . . . . . . . . . . . . . . . passim
Poindexter v. Greenhow,
114 U.S. 270 (1885). . . . . . . . . . . . . . . . . . . . . . . 24
Procunier v. Navarette,
434 U.S. 555 (1978). . . . . . . . . . . . . . . . . . . . 13, 14
Rodriguez v. Swartz,
899 F.3d 719 (9th Cir. 2018). . . . . . . . . . . . . . . . 26
Ross v. Blake,
136 S. Ct. 1850 (2016). . . . . . . . . . . . . . . . . . . . . 20
Saucier v. Katz,
533 U.S. 194 (2001). . . . . . . . . . . . . . . . . . . . . . . 17
Scheuer v. Rhodes,
416 U.S. 232 (1974). . . . . . . . . . . . . . . . . . . passim
Tenney v. Brandhove,
341 U.S. 367 (1951). . . . . . . . . . . . . . . . . . . 8, 9, 13
Thompson v. Clark,
No. 14-CV-7349, 2018 U.S. Dist. LEXIS 105225
(E.D.N.Y. 2018) . . . . . . . . . . . . . . . . . . . . . . . . . . 26
Thompson v. Cope,
900 F.3d 414 (7th Cir. 2018). . . . . . . . . . . . . . . . 26

ix
Tolan v. Cotton,
572 U.S. 650 (2014). . . . . . . . . . . . . . . . . . . . . . . . 7
Walczyk v. Rio,
496 F.3d 139 (2d Cir. 2007) . . . . . . . . . . . . . . . . . 7
Wood v. Strickland,
420 U.S. 308 (1975). . . . . . . . . . . . . . . . . 12, 13, 31
Wyatt v. Cole,
504 U.S. 158 (1992). . . . . . . . . . . . . . . . . . . . . . . 27
Zadeh v. Robinson,
928 F.3d 457 (5th Cir. 2019). . . . . . . 17, 18, 19, 26
Ziglar v. Abbasi,
137 S. Ct. 1843 (2017). . . . . . . . . . . . . . . . . . . . . 27
STATUTES
§ 1 of the Ku Klux Klan Act. 17 Stat. 13. . . . . . . . . . 8
28 U.S.C. § 1254(1). . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 1983 . . . . . . . . . . . . . . . . . . . . . . . . passim
Cong. Globe, 42d Cong., 1st Sess. . . . . . . . . . . . . . . 21
OTHER AUTHORITIES
William Baude, Is Qualified Immunity Unlawful?
106 Cal. L. Rev. 45 (2018) . . . . . . . . . . . . . . 22, 27
Karen Blum, Erwin Chemerinsky & Martin A.
Schwartz, Qualified Immunity Developments:
Not Much Hope Left for Plaintiffs, 29 Touro L.
Rev. 633 (2013) . . . . . . . . . . . . . . . . . . . . . . . . . . 19

x
David E. Engdahl, Immunity and Accountability for
Positive Governmental Wrongs, 44 U. Colo. L.
Rev. 1 (1972) . . . . . . . . . . . . . . . . . . . . . . . . . 10, 22
John C. Jeffries, Jr., The Liability Rule for
Constitutional Torts, 99 Va. L. Rev. 207 (2013) 27
Kit Kinports, The Supreme Court’s Quiet Expansion
of Qualified Immunity, 100 Minn. L. Rev.
Headnotes 62 (2016) . . . . . . . . . . . . . . . . . . . 19, 27
Jasmine C. Lee et al., At Least 88 Cities Have Had
Protests in the Past 13 Days Over Police Killings
of Blacks, N.Y. Times (July 16, 2016), Available
at https://www.nytimes.com/interactive/2016/07/
16/us/protesting-police-shootings-of-blacks.html
(subscription) or https://perma.cc/ES6C-XMWS
. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
Llewellyn, Remarks on the Theory of Appellate
Decision and the Rules or Canons About How
Statutes Are To Be Construed, 3 Vand. L. Rev.
395 (1950) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Llewellyn, The Common Law Tradition,
Appendix C (1960). . . . . . . . . . . . . . . . . . . . . . . . 21
Rich Morin et al., Pew Research Ctr., Behind the
Badge
(2017),
Available
at
https://pewrsr.ch/2z2gGSn . . . . . . . . . . . . . . . . . 33
Aaron L. Nielson & Christopher J. Walker,
Strategic Immunity, 66 Emory L.J. 55 (2016) . . 35

xi
Pew Research Ctr., Sharp Racial Divisions in
Reactions to Brown, Garner Decisions (2014),
Available at http://www.pewresearch.org/wpcontent/uploads/sites/4/2014/12/12-8-14-PoliceRace-release.pdf. . . . . . . . . . . . . . . . . . . . . . . . . . 32
James E. Pfander & Jonathan L. Hunt, Public
Wrongs and Private Bills: Indemnification and
Government Accountability in the Early
Republic, 85 N.Y.U. L. Rev. 1862 (2010) . . . . . . 27
James E. Pfander, Alexander A. Reinert & Joanna
C. Schwartz, The Myth of Personal Liability:
Who Pays When Bivens Claims Succeed
(February 27, 2019; last revised September 6,
2019), Stanford Law Review, Forthcoming;
Northwestern Public Law Research Paper No.
19-05; UCLA School of Law, Public Law
Research Paper No. 19-11. Available at:
SSRN: https://ssrn.com/abstract=3343800 or ht
tp://dx.doi.org/10.2139/ssrn.3343800 . . . . . . 29, 30
Cornelia T.L. Pillard, Taking Fiction Seriously: The
Strange Results of Public Officials’ Individual
Liability Under Bivens, 88 Geo. L.J. 65 . . . . . . . 30
Chief Justice John G. Roberts, Jr., 2019 Year-End
Report on the Federal Judiciary, p. 4 (December
3 1 ,
2 0 1 9 ) ,
Av aila b l e
a t
https://www.supremecourt.gov/publicinfo/yearend/2019year-endreport.pdf . . . . . . . . . . . . . 34, 35
Joanna C. Schwartz, Police Indemnification, 89
N.Y.U. L. Rev. 885 (2014) . . . . . . . . . . . . 28, 29, 30

xii
Joanna C. Schwartz, The Case Against Qualified
Immunity, 93 Notre Dame L. Rev. 1797 (2018). 27
Joanna C. Schwartz, What Police Learn from
Lawsuits, 33 Cardozo L. Rev. 841 (2012). . . . . . 33
Fred O. Smith, Jr., Abstention in a Time of
Ferguson, 131 Harv. L. Rev. 2283 (2018) . . . . . 34
U.S. Dep’t of Justice, Investigation of the Ferguson
Police Department, p. 83 (Mar. 4, 2015),
Available at https://perma.cc/XYQ8-7TB4 . . . . . 32

1
PETITION FOR WRIT OF CERTIORARI
Petitioners, Noble Cooper, individually and as
administrator of the Estate of Norman Cooper,
deceased, Estate of Norman Cooper, Jennifer Cooper,
Nathan Cooper, Carly Lopez, individually, and as next
friend of Nason Cooper and Nevon Cooper, minors,
respectfully petition for a writ of certiorari to review
the judgment of the United States Court of Appeals for
the Fifth Circuit in this case.
OPINIONS BELOW
The opinion of the Fifth Circuit (App., infra, 1a-8a)
is available at 779 Fed. Appx. 269*; 2019 U.S. App.
Lexis 30447 **; 2019 WL 5063307. The district court’s
decision granting, in part and denying in part, the
motion for summary judgment (App., infra, 9a-69a) is
unreported.
JURISDICTION
The judgment of the court of appeals was filed on
October 8, 2019. Justice Alito extended the time to file
this petition to February 5, 2020. The Court’s
jurisdiction is based on 28 U.S.C. § 1254(1).
STATUTORY PROVISION INVOLVED
42 U.S. Code § 1983 provides, in relevant part:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any

2
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the
party injured in an action at law, suit in equity,
or other proper proceeding for redress***.
STATEMENT
This petition for certiorari will illustrate that review
is warranted because the judicially created doctrine of
qualified immunity has expanded to the point that it
nullifies the remedial purpose of Section 1983. There is
no basis in the text or the legislative history of the
statute supporting current qualified immunity
jurisprudence. Moreover, the empirical data examining
the policy assumptions on which it rests shows them to
be unsupported and contraindicated. It is, respectfully
submitted that qualified immunity should be
reexamined and refocused on the remedial intent of the
statute.
A. Factual Background
On April 19, 2015, Norman Cooper, a black father
and volunteer youth football coach, was killed at the
age of 33 by respondent officers Oliver Flaig and
Arnoldo Sanchez who tased him nine times without
justification. ROA.1155 (at p. 39), ROA.1398-1399,
ROA.1423; App., infra, 70a.
The events leading to Norman’s death began when
his younger brother, Nathan Cooper, noticed that
Norman was acting strangely. App., infra, 72a-73a.
Nathan was in San Antonio and staying at the home
owned by their parents, Reverends Noble Cooper and
Jennifer Cooper. App., infra, 72a.

3
Norman Cooper arrived at the Cooper home and
Nathan let him in. App., infra, 72a. Nathan
immediately observed that Norman was animated and
disoriented. He began preaching gospel to Nathan,
singing hymns and appeared to be under the influence
of drugs or mentally ill. Id. at 72a-73a.
Respondent Flaig arrived first and without
announcement entered the Cooper residence. App.,
infra, 73a-74a. Flaig observed that Norman had taken
off his shirt. ROA.1224 (at p. 51). Flaig also noted that
Norman was sweaty, animated, praying, and acting
strange. ROA.1225 (at p. 54), ROA.1226 (at pp. 60-61).
Flaig talked to Norman but observed that Norman
did not appear to comprehend what Flaig was saying.
App., infra, 74a; ROA.1227 (at pp. 62-63). Norman was
at all times respectful to the officers. App., infra, 74a.
After just a few minutes, Flaig became aggressive
and started screaming at Norman and Nathan. App.,
infra, 74a. At this time respondent Sanchez arrived at
the Cooper residence. Ibid. The record shows that
Norman never made any threats or attempted any
physical contact with Flaig, Sanchez, or Nathan. Id. at
76a-77a; ROA.1226 (at pp. 60-61), ROA.1291 (p. 54).
Flaig then escorted Norman upstairs to Norman’s
small bedroom to obtain Norman’s ID. App., infra, 74a.
When they entered the room, Norman picked up the
landline house phone and called his mother, Jennifer
Cooper. ROA.1253 (at p. 166). Jennifer answered and
Norman put the call on speaker mode allowing Jennifer
to hear the entire episode that ended with her son’s
death. Ibid; ROA.1345 (at p. 68).

4
Sanchez and Nathan remained downstairs while
Flaig and Norman went upstairs to obtain Norman’s
ID. App., infra, 74a-75a. Sanchez then went upstairs
and Nathan called his father to inform him of the
situation. Ibid.
Norman continued to recite gospel and told Flaig
and Sanchez that all he wanted was to “help Nathan.”
ROA.840. Flaig and Sanchez elected to conduct an
emergency detention because they thought Norman
was exhibiting symptoms consistent with mental
illness or drug use. Ibid; ROA.759, ROA.1163 (at pp.7273), ROA1226 (at pp. 60-61), ROA.1230 (at pp. 76-77),
ROA.1298 (at p. 85). Flaig told Norman to turn around
and put his hands behind his back but Norman
continued to preach the gospel. ROA.840. Flaig and
Sanchez then cornered Norman in the small room and
moved to handcuff him. Id. at 840-841. Flaig and
Sanchez backed away and then Norman picked up a
laptop computer and began explaining what was
displayed on the screen. Ibid. Flaig and Sanchez then
brandished their Tasers [in probe mode] and fired,
striking Norman, causing him to fall over a desk and
onto the floor. ROA.841, ROA.1300 (at pp. 92-93); App.,
infra, 70a.
Nathan—still on the phone with his father—could
hear Jennifer through his father’s phone, yelling for
Nathan to tell the officers to stop “tasing my baby.”
App., infra, 75a. Jennifer instructed Nathan to tell the
officers to stop tasing Norman. Ibid. Nathan ran
upstairs and heard Norman screaming “Ahh!” and
“Thank you Jesus!” in response to the Taser shocks.

5
App., infra, 75a. As Nathan made it to the top of the
stairs, he heard one or two more Taser discharges. Ibid.
Entering the room, Nathan saw multiple Taser
wires connected to Norman’s back and body with
Norman on the floor, face down, with his hands cuffed
behind his back. App., infra, 75a; ROA.1176 (at pp.
123-125), ROA.1177 (at pp. 126-127). Further, Nathan
observed at least one of the connected wires still
vibrating, discharging electricity into Norman. Ibid.
Sanchez was kneeling on Norman, using the weight of
his body to apply pressure to Norman’s back. Ibid.
Nathan never observed his brother resisting in any
way. Norman appeared unconscious because he was
not moving. App., infra, 75a.
As Nathan stood witness to the final minutes of his
brother’s life, Flaig and Sanchez did not check
Norman’s pulse, roll Norman onto his side, nor make
any effort to help Norman despite clear signs of
respiratory distress. App., infra, 76a. In fact, the
officers were laughing. Ibid. Nathan then watched
Norman struggle to take a tortured gasp of air, his last.
Ibid.
Flaig and Sanchez tased Norman nine times,
delivering fifty seconds of electricity into Norman’s
body in just over three minutes. App., infra, 70a;
ROA.1398-99. This included simultaneous Taser
activations by Flaig and Sanchez as well as tasing
Norman on his back after he was face down on the floor
with his hands cuffed behind his back. Ibid; ROA.1176
(at pp. 123-125), ROA.1177 (at pp. 126-127).

6
The Bexar County Medical Examiner found the
manner and cause of Norman’s death to be homicide.
ROA.1429-1430,1436. Petitioners’ expert cardiologist
concluded that the use of Tasers and other force and
weight employed by Flaig and Sanchez were a direct
and proximate cause of Norman’s premature death.
ROA.1422-1423, ROA.1426-1430.
Petitioners filed suit against the respondent officers
for excessive force and deliberate indifference to
Norman’s serious medical needs pursuant to 42 U.S.C.
§ 1983 for violations of the Norman’s Fourth and
Fourteenth Amendment rights.
B. Proceedings Below
The district court denied the officers’ motions for
summary judgment on excessive force claims
determining that the officers were not entitled to
qualified immunity. App., infra, 2a. Respondents filed
an interlocutory appeal to the Fifth Circuit challenging
the district court’s decision.
The Fifth Circuit reversed and rendered in favor of
the respondent officers. App., infra, 2a. The panel
found that because of “unsettlement in the law… the
court cannot find as a matter of law that the Officers’
use of force was ‘objectively reasonable in light of
clearly established law[.]’” Id. at 3a. Further, the Fifth
Circuit held “Appellees [Petitioners herein] cannot
point to any factually analogous case that would
establish that Flaig and Sanchez’s use of force was
unreasonable.” Id. at 5a. The Fifth Circuit also found
“it was reasonable for Flaig and Sanchez to suspect
Norman had committed a crime such as burglary or

7
trespass[,]” which was contrary to the plaintiffs’
evidence and also contrary to the officers’ deposition
testimony. Id. at 6a.
The Fifth Circuit usurped the fact-finding role of the
district court and effectively shifted the burden of proof
to the plaintiffs to disprove qualified immunity by
viewing the facts in the light most favorable to the
officers. This is contrary to this Court’s ruling in Tolan
v. Cotton, 572 U.S. 650 (2014) and Johnson v. Jones,
515 U.S. 304 (1995). The Fifth Circuit’s approach is
also inconsistent with other circuits. Estate of
Armstrong v. Village of Pinehurst, 810 F.3d 892 (4th
Cir. 2016); Walczyk v. Rio, 496 F.3d 139 (2d Cir. 2007).
Moreover, the Fifth Circuit’s insistence on factually
identical circumstances in previous cases where the
conduct was found to be a constitutional violation has
left victims of comparable—but not identical—
constitutional injuries without remedy. Tolan, 572 U.S.
at 656-657, 659; see also Brosseau v. Haugen, 543 U.S.
194, 195 (2004) (clearly established law “in light of the
specific context of the case” and constructing “facts… in
a light most favorable to non-movants”).

8
REASONS FOR GRANTING THE PETITION
The assumptive policy considerations underlying
the qualified immunity doctrine lack any empirical
foundation and its perplexing application routinely
leads to absurdly unjust results.
The Court should grant review to consider
eliminating or substantially revising the doctrine of
qualified immunity to allow Section 1983 to realize its
remedial purpose.
Qualified Immunity Should Be
Re-examined And Refocused In A
Manner That Protects The Constitutionally
Guaranteed Rights of Citizens And Encourages
Accountability Of Public Officials.
42 U.S.C. § 1983 was passed in the aftermath of the
Civil War. It became law on April 20, 1871 as § 1 of the
Ku Klux Klan Act. 17 Stat. 13. The statute was rarely
used until the 1940s when it was employed to challenge
Jim Crow laws in the South. In 1951, this Court in
Tenny v. Brandhove began laying the groundwork for
what has now become qualified immunity. Tenney v.
Brandhove, 341 U.S. 367 (1951).
A. Judicial development and creation of
qualified immunity.
1. Tenney involved the application of legislative
immunity from liability for a claim under § 1983
brought by plaintiff Brandhove against a committee of
the California Legislature and some of its members.
Tenney, 341 U.S. at 369, 372. In granting immunity,
the Court stated that, “[w]e only considered the scope

9
of the privilege as applied to the facts of the present
case.” Id. at 378. Nonetheless, the Court’s holding was
interpreted as a broad rule requiring legislative
immunity unless it was “obvious that there was a
usurpation of functions exclusively vested in the
Judiciary or the Executive.” Ibid.
In Tenney, the concurrence and dissent raised
concerns about the consequences of shielding
governmental officials from their unconstitutional
conduct that deprives citizens of fundamental rights.
Tenney, 341 U.S. at 380-383. Specifically, Mr. Justice
Douglas aptly warned that the Court was granting
immunity to legislators who violate constitutional
rights frustrating the purpose of § 1983 which was “to
secure federal rights against invasion by officers and
agents of the states.” Id. at 383 (Douglas, J.,
dissenting). In retrospect, Tenney set the foundation for
the, sweeping, government-always-wins, immunity
regime that exists today.
2. In 1967, this Court issued the next major decision
on qualified immunity by instituting its precursor, the
good faith and probable cause defense. Pierson v. Ray,
386 U.S. 547, 557 (1967). Pierson involved black and
white Episcopal clergymen participating in a prayer
pilgrimage to promote racial equality. Id. at 552. The
clergymen were arrested in Mississippi for entering a
white only waiting room at a bus terminal. Id. at 552553.
The clergymen filed a § 1983 lawsuit against the
arresting officers and the municipal judge for violations
of their constitutional rights and for false arrest and
imprisonment. Pierson, 386 U.S. at 550. The Court held

10
that the judge was entitled to absolute immunity and
that the defense of good faith and probable cause was
available to the arresting officers. Id. at 553, 557.
The Court explained that § 1983 claims are to be
read against the background of tort liability. Pierson,
386 U.S. at 556-557. The Court reasoned that the
common law elements of false arrest included the
defense of good faith and probable cause. Ibid. In
contrast to qualified immunity, the Pierson Court held
that an arresting officer’s good-faith was a defense for
jury consideration but not an immunity from a lawsuit
itself. Id. at 557. Pierson ignored and directly
contradicted an earlier decision in which the Court
rejected the availability of a good-faith defense. Myers
v. Anderson, 238 U.S. 368, 378 (1915).
Pierson justified a good-faith defense to § 1983
claims on the premise that the § 1983 claim at issue,
did, in fact, have a corresponding common-law tort for
which the defense was available. Pierson, 386 U.S. at
557. The Court did not consider Myers nor the strict
rule of personal public official liability that prevailed
when § 1983 became law. Myers, 238 U.S. at 378; David
E. Engdahl, Immunity and Accountability for Positive
Governmental Wrongs, 44 U. Colo. L. Rev. 1, 19 (1972).
As to the judge’s absolute immunity, the Court’s
decision was based on the presumption “that Congress
would have specifically so provided had it wished to
abolish the doctrine [judicial immunity].” Pierson, 386
U.S. at 554-555. This is important because such flawed
assumptions are what the Court has repeatedly
utilized in their drive to immunize public officials from
liability for unconstitutional conduct.

11
3. The next major decision regarding qualified
immunity was Scheuer v. Rhodes, 416 U.S. 232 (1974).
Scheuer arose from the shooting deaths of students by
members of the Ohio National Guard at Kent State
University. Scheuer, 416 U.S. at 234-235. The
claimants brought § 1983 claims against members of
the Ohio National Guard and other state officials. Id.
at 234. The trial court dismissed the complaints based
on a lack of subject matter jurisdiction. Ibid. The
appellate court affirmed and held—in the alternative—
that the common-law doctrine of absolute executive
immunity prevented the claims. Id. at 234-235, 238.
The Court reversed, determining that the Eleventh
Amendment did not shield the officials from § 1983
claims and explained why the officials were not entitled
to the executive immunity. Scheuer, 416 U.S. at 238249 (citing Ex Parte Young, 209 U.S. 123 (1908).
Scheuer also broadened the good-faith defense,
ruling that “[i]t is the existence of reasonable grounds
for the belief formed at the time and in light of all the
circumstances, coupled with good-faith belief, that
affords a basis for qualified immunity of executive
officers for acts performed in the course of official
conduct.” Scheuer, 416 U.S. at 247-248 (Italics added).
The Court supported its decision on a policy
assumption that governmental officials would be
deterred from executing their duties unless they all
enjoy some immunity, whether absolute or qualified.
Scheuer, 416 U.S. at 241-242 (Emphasis added).
Further, the holding stated, “[t]he concept of immunity
assumes this and goes on to assume that it is better to

12
risk some error and possible injury from such error
than not to decide or act at all.” Id. at 242.
Interestingly, the Court noted that the concept of
official immunity, whether absolute or qualified,
developed from the same considerations as sovereign
immunity in England, a doctrine of oppression that was
a significant catalyst that lead to the American
Revolution. Scheuer, 416 U.S. at 239-240. The Court
referenced numerous cases, none of which reviewed
any empirical data supporting these assumptive policy
considerations. Scheuer, 416 U.S. at 239-240 n.4, 5.
In sum, Scheuer expanded the good-faith defense,
referring to it as “a qualified immunity.” Moreover, the
Court made clear that all officials are entitled to some
immunity. This determination was predicated
exclusively on assumptive policy considerations without
empirical support.
4. The following year, the Court further enhanced
the good faith defense—now consistently identifying it
as an immunity as opposed to a traditional merits
defense—in applying it to board members of a school
district. Wood v. Strickland, 420 U.S. 308, 315, 318
(1975). Wood concerned the expulsion of high school
students who had been accused of spiking the punch
bowl at an extracurricular activity. Wood, 420 U.S. at
309-311. Two of the students filed a lawsuit under
§ 1983, alleging violation of their due process rights
against school board members, administrators, and the
school district. Id. at 309-310. The board members
asserted that they were entitled to absolute immunity.
Id. at 313-314.

13
The Court denied the board members absolute
immunity but did extend a qualified good-faith
immunity. Wood, 420 U.S. at 318. Specifically holding,
that in the context of school discipline, board members
would not be immune from a § 1983 claim if they knew
or reasonably should have known that their action
would violate the student’s constitutional rights, or if
the action was taken with malice, causing a
constitutional injury. Id. at 322. The Court concluded
that the test for determining the applicability of
immunity contained both objective and subjective
elements. Id. at 321.
As in Tenney, Pierson, and Scheuer, the Wood Court
did not support its reasoning with empirical data but
instead perpetuated their assumption regarding the
inhibiting effects of § 1983 claims. See Wood, 420 U.S.
at 319-320. The Court provided an additional policy
justification, noting that the overwhelming majority of
school board members are elected and receive little to
no compensation. Wood, 420 U.S. at 320 n. 11.
Significantly, the Court was persuaded by policy
considerations that the members were accountable to
the voters and the time they expended in their official
capacity was voluntary.
5. In the following years, the Court issued a number
of opinions essentially reiterating the same qualified
good-faith immunity test (and absolute immunity)
created by Tenney, Pierson, Scheuer, and Wood,
applying it to various types of state and federal public
officials in differing situations. See, e.g., Imbler v.
Pachtman, 424 U.S. 409 (1976) (absolute immunity for
state prosecutors); Procunier v. Navarette, 434 U.S. 555

14
(1978) (qualified immunity for state prison
administrators); Butz v. Economou, 438 U.S. 478 (1978)
(qualified immunity, in general, for federal executive
branch officials; and absolute immunity for federal
hearing examiners, administrative judges, and federal
officials who perform functions analogous to a
prosecutor).
In 1982, the Court formally established the
contemporary doctrine of qualified immunity applied
today, becoming the standard-bearer for the
deprivation of civil rights and the unaccountability of
public officials. See, generally, Harlow v. Fitzgerald,
457 U.S. 800 (1982).
The Harlow case involved a § 1983 lawsuit alleging
that former President Richard M. Nixon1 and two
senior Presidential aides conspired to violate
respondent Fitzgerald’s constitutional and statutory
rights through an unlawful and retaliatory termination
of Fitzgerald from the Air Force. Harlow, 457 U.S. at
802-806. The petitioners’ claimed that they were
entitled to absolute immunity or, in the alternative,
qualified immunity. Id. at 802, 813. The Court
concluded that executive branch officials, including
Presidential aides and advisors, are generally entitled
to qualified immunity. Harlow, 457 U.S. at 809.

1

The Harlow petitioners appealed independently of President
Nixon. Harlow, 457 U.S. at 806.

15
Most importantly, the Harlow Court substantially
expanded qualified immunity. Harlow, 457 U.S. at 818.
The holding stated, “that government officials
performing discretionary functions, generally are
shielded from liability for civil damages insofar as their
conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known.” Ibid. (Citations omitted). The
Court further instructed that the qualified immunity
analysis should focus on the objective reasonableness
of an official’s conduct in relation to clearly established
law, eliminating any subjective analysis. Harlow, 457
U.S. at 818. Harlow also requires that courts consider
the applicable law and whether that law was clearly
established at the time of the alleged unconstitutional
conduct. Ibid.
The Harlow Court seemed to indicate that this new,
clearly established analysis should typically result in
qualified immunity failing except in extraordinary
situations, “if the official pleading the defense claims
extraordinary circumstances and can prove that he
neither knew nor should have known of the relevant
legal standard, the defense should be sustained.”
Harlow, 457 U.S. at 819. (Italics added). At the same
time, the Court directed that “[u]ntil this threshold
immunity question is resolved, discovery should not be
allowed.” Id. at 818.
The only support for the new application of qualified
immunity was, again, based on assumptive public
policy considerations. The Harlow Court based this
new and expanded immunity standard on the premise
that the good-faith defense’s subjective analysis

16
allowed insubstantial § 1983 lawsuits to be heard by a
jury. Harlow, 457 U.S. at 815-816. The Court’s primary
concern focused on the Harlow petitioners’ assertion
that they had been subjected to eight years of frivolous
discovery. Id. at 805, 816-818. The opinion held that
this new qualified immunity was to preclude public
officials from being subjected to the litigation process
in full until the threshold question of qualified
immunity was decided. Id. at 817-818.
Justification for eliminating any subjective analysis
and instituting a broad shield from liability was
expressed in an assumptive and conclusory fashion.
Harlow, 457 U.S. at 816-818. The Court stated—
without citation to supportive data—“the general costs
of subjecting officials to the risks of trial -- distraction
of officials from their governmental duties, inhibition
of discretionary action, and deterrence of able people
from public service.” Id. at 816.
With regard to the Court’s presumption in Harlow
that discovery interferes with official duties, Harlow
specifically dealt with very high-level governmental
officials, Presidential aides and advisors. In reality,
there are few § 1983 claims against Presidential aides
but there are literally thousands of egregious cases
against abusive police officers.
Three years later, in Mitchell v. Forsyth, the Court
ruled that the trial court’s denial of petitioner’s claim
of qualified immunity—to the extent it turned on an
issue of law—was an appealable final decision
notwithstanding the absence of a final judgment. This
opened the proverbial flood gates to interlocutory
appeals for all public officials. Mitchell v. Forsyth, 472

17
U.S. 511 (1985). This was quickly weaponized against
civil rights claimants.
6. The Court continued strengthening qualified
immunity when it eliminated the required sequence of
qualified immunity analysis and left it to the reviewing
court’s discretion. Pearson v. Callahan, 555 U.S. 223,
227, 236-237 (2009). This change was based on the
belief that the mandated sequence established in
Saucier v. Katz, 533 U.S. 194, 201 (2001), was often of
little value, wasted judicial resources, increased
litigation expenses, and could result in poor decisionmaking by the lower courts. See id. at 236-240.
Ultimately, the Pearson change to the Saucier
qualified immunity analysis resulted in the exact,
harmful stagnation of constitutional law that the
Saucier analysis sought to avoid. Judge Don R. Willett
of the Fifth Circuit recently provided an apt
explanation of this perverse state of qualified
immunity:
“Plaintiffs must produce precedent even as fewer
courts are producing precedent. Important
constitutional questions go unanswered
precisely because no one’s answered them
before. Courts then rely on that judicial silence
to conclude there’s no equivalent case on the
books. No precedent = no clearly established law
= no liability.” Zadeh v. Robinson, 928 F.3d
457,479-480 (5th Cir. 2019) (Willett, J.,
concurring in part and dissenting in part).

18
7. Although Pearson was a major contributor to the
judicially created immunity regime, the case solidifying
qualified immunity into the currently impervious
shield was Ashcroft v. al-Kidd, 563 U.S. 731 (2011).
Ashcroft altered the clearly established prong of the
qualified immunity analysis, “[w]e do not require a case
directly on point, but existing precedent must have
placed the statutory or constitutional question beyond
debate.” Ashcroft, 563 U.S. at 741 (citing Anderson v.
Creighton, 483 U.S. 635, 640 (1987) and Malley v.
Briggs, 475 U.S. 335, 341 (1986)) (Italics added).
As Judge Willett opined, ‘beyond debate’ made it
practically impossible for a citizen, injured by
unconstitutional conduct of a public official, to
establish that a right was clearly established when
courts frequently skip evaluating the constitutional
violation. See Zadeh, 928 F.3d at 478-481 (Willett, J.,
concurring in part and dissenting in part) (“In day-today practice, the ‘clearly established’ standard is
neither clear nor established among our Nation's lower
courts.”).
Ashcroft furthered the Court’s sub silentio attack on
constitutionally injured citizens in a seemingly subtle
replacement of just one word, “every” for “a” in citing
partial language from Anderson v. Creighton: “[a]
Government official's conduct violates clearly
established law when, at the time of the challenged
conduct, ‘[t]he contours of [a] right [are] sufficiently
clear’ that every ‘reasonable official would [have
understood] that what he is doing violates that right.’”
Ashcroft, 563 U.S. at 741 (citing and quoting Anderson,
483 U.S. at 640) (Emphasis added).

19
It is not difficult to see how this subtle substitution
of words would have a significant impact as the
defendant official will always be able to obtain an
expert in the official’s field that will testify that the
alleged conduct was reasonable no matter how sinister
that conduct actually was. The message it sends to our
police is that virtually any death at the hands of police
will be justified so long as the officer recites the mere
incantation, “that they were in fear for their own
safety,” no matter how implausible that fear is. The
Court has never provided any explanation for the
change in wording. Kit Kinports, The Supreme Court’s
Quiet Expansion of Qualified Immunity, 100 Minn. L.
Rev. Headnotes 62, 65 (2016) (citing Karen Blum,
Erwin Chemerinsky & Martin A. Schwartz, Qualified
Immunity Developments: Not Much Hope Left for
Plaintiffs, 29 Touro L. Rev. 633, 656 (2013)).
Mere substitution of “every” for “a” left zero doubt
that for a citizen injured by the unconstitutional act of
a public official, vindication of the constitutional wrong
would be unattainable. See Zadeh, 928 F.3d at 478-479
(Willett, J., concurring in part and dissenting in part)
(“Everyone agrees his Fourth Amendment rights were
violated. But owing to a legal deus ex machina—the
‘clearly established’ prong of qualified-immunity
analysis—the violation eludes vindication.”).
B. Qualified immunity lacks statutory support
and is contrary to governmental immunity
principles of the Founding Era.
Are the Court’s statutory and common-law
justifications for creating qualified immunity actually
supported?

20
1. The Court has consistently held that the
paramount rule of “[s]tatutory interpretation, as we
[Supreme Court of the United States] always say,
begins with the text[.]” Ross v. Blake, 136 S. Ct. 1850,
1856 (2016) (citing Hardt v. Reliance Standard Life Ins.
Co., 560 U.S. 242, 251 (2010)). The Court has
frequently concluded that the text of § 1983 does not
support any immunities. Imbler, 424 U.S. at 417 (“The
statute thus creates a species of tort liability that on its
face admits of no immunities”); Owen v. Independence,
445 U.S. 622, 635 (1980) (“Its [§ 1983] language is
absolute and unqualified; no mention is made of any
privileges, immunities, or defenses that may be
asserted.”); Malley v. Briggs, 475 U.S. 335, 342 (1986)
(“the statute on its face does not provide for any
immunities”). “Rather, the Act imposes liability upon
‘every person’ who, under color of state law or custom,
‘subjects, or causes to be subjected, any citizen of the
United States . . . to the deprivation of any rights,
privileges, or immunities secured by the Constitution
and laws.’” Owen, 445 U.S. at 635 (quoting portions of
42 U.S.C. § 1983) (Italics in original).
The Court instead bases its creation of immunity
upon a theory that “[t]he legislative record gives no
clear indication that Congress meant to abolish
wholesale all common-law immunities.” Pierson, 386
U.S. at 554. And with regard to addressing judicial
immunity and § 1983 liability, “[t]he immunity of
judges for acts within the judicial role is equally well
established, and we presume that Congress would have
specifically so provided had it wished to abolish the
doctrine.” Id. at 554-555. (Citation omitted) (Italics
added).

21
The evaluation of the legislative record detailed by
the Pierson dissent, although discussing judicial
immunity, is probative in understanding whether the
Court’s presumption is substantiated. As the Pierson
dissent details, the legislative record reflects that
imposition of liability on the judiciary was indeed
discussed and certain members actually objected to
judicial liability. Pierson, 386 U.S. at 561-563 (Douglas,
J., dissenting) (quoting portions of Cong. Globe, 42d
Cong., 1st Sess., 365-366; Cong. Globe, 42d Cong., 1st
Sess., Appendix 217; Cong. Globe, 42d Cong., 1st Sess.,
385). “Yet despite the repeated fears of its opponents,
and the explicit recognition that the section would
subject judges to suit, the section remained as it was
proposed: it applied to ‘any person.’” Id. at 563
(Citation omitted). The congressional record illustrates
“that the words of the statute meant what they said
and that judges would be liable.” Id. at 561.
Additionally, while a court should be considerate of
the common-law existing at the time of enactment, it is
also true that “Congress enacts a statute to remedy the
inadequacies of the pre-existing law, including the
common law.” Pierson, 386 U.S. at 561, n.1 (Douglas,
J., dissenting) (citing, generally, Llewellyn, Remarks on
the Theory of Appellate Decision and the Rules or
Canons About How Statutes Are To Be Construed, 3
Vand. L. Rev. 395 (1950); Llewellyn, The Common Law
Tradition, Appendix C (1960) (“Remedial statutes are
to be liberally construed.”). Further, the principles
instructing liberal interpretation of remedial statutes
are based precisely upon the fact that remedial
legislation is actually intended to “remedy the defects
of the pre-existing law.” Id. at 561.

22
Finally, as recently reemphasized, the Court’s
responsibility is to apply the law as written by
Congress and it is never the Court’s “job to rewrite a
constitutionally valid statutory text under the banner
of speculation about what Congress might have done
had it faced a question that, on everyone’s account, it
never faced.” Henson v. Santander Consumer USA Inc.,
137 S. Ct. 1718, 1725 (2017) (citing Magwood v.
Patterson, 561 U.S. 320, 334 (2010) (“We cannot replace
the actual text with speculation as to Congress’
intent.”). Accordingly, basic rules of statutory
interpretation reflect that § 1983’s text as well as the
background against which it was enacted, weighs
heavily against any immunity.
2. The Court supports its creation and application
of governmental immunities and earlier defenses on
the assumption that analogous common law
immunities and defenses were so well established at
the time § 1983 was passed, that had Congress
intended to abolish these immunities and defenses it
would have explicitly done so. Pierson, 386 U.S. at 554555. This evaluation is appropriate but whether the
ultimate conclusion reached by the Court is correct
rests upon the established common law in 1871. A
review of governmental liability during America’s early
years and the Founding-era, illustrates that a strict
rule of liability for public officials was, in fact, the
standard and nothing close to the current immunity
shield existed. See William Baude, Is Qualified
Immunity Unlawful? 106 Cal. L. Rev. 45, 55-56 (2018)
(citing Engdahl, supra, at 19).

23
This rule of strict liability was highlighted in early
cases such as Murray v. The Schooner Charming Betsy,
6 U.S. (2 Cranch) 64 (1804). Murray involved an
American naval captain’s seizure of a ship after
recapturing it from a French privateer. Id. at 115-116.
The captain asserted he should not be held liable
because he was acting pursuant to a recently passed
law and seized the vessel with probable cause. Id. at
117-118. The Court deemed that the captain had acted
“upon correct motives” and “from a sense of duty.” Id.
at 124. Nevertheless, the naval captain was held liable
for an unlawful seizure. Id. at 125-126.
Five days later, the Court issued a similar ruling in
which another American naval captain seized a Danish
ship coming from a French port pursuant to the
President’s instruction. Little v. Barreme, 6 U.S. (2
Cranch) 170, 176-178 (1804). The Court observed the
law only permitted seizure of ships bound to French
ports. Id. at 177-178. The Court, although
acknowledging its own bias in believing the naval
captain was acting with “pure intention” pursuant to a
Presidential Order, held that “instructions cannot
change the nature of the transaction, or legalize an act
which without those instructions would have been a
plain trespass.” Id. at 179.
Another decision consistent with the strict rule of
official liability arose during the Mexican War. Mitchell
v. Harmony, 54 U.S. (13 How.) 115 (1851). In Mitchell,
an American army colonel, following an order from his
superior, arrested a trader, seized his goods, and forced
him, with his goods in tow, to accompany the American
forces on a hazardous expedition. Id. at 129.

24
Eventually, the trader’s goods were taken by Mexican
authorities resulting in a total loss and the colonel was
found liable. Id. at 130, 137.
The Mitchell Court opined that precluding liability
for an unlawful act would rest upon the existence of an
urgent necessity, a question for the jury who found a
justifiable emergency did not exist. Mitchell, 54 U.S. at
137. The Court noted that although the campaign was
“undertaken from high and patriotic motives[,]” any
consideration of indemnification would be a question
for Congress as the action was unlawful. Id. at 135.
The strict rule of liability of government officials
continued in subsequent years as illustrated by
Beckwith v. Bean, 98 U.S. 266 (1878) and Poindexter v.
Greenhow, 114 U.S. 270 (1885). Beckwith dealt with
assault and false imprisonment claims made by alleged
deserters of the Union army against army officers.
Beckwith, 98 U.S. at 266-268. The Court reversed the
claimants’ verdict as to exemplary damages because
the jury was precluded from considering evidence of the
army officers’ good or bad motives, “not in justification,
but in mitigation of damages” as compensatory
damages “cannot be diminished by reason of good
motives upon the part of the wrong-doer.” Id. at 275276.
Poindexter, involved a Virginia citizen’s claim
against a tax collector who refused valid, state-issued
tax coupons and instead seized some of the plaintiff’s
property in satisfaction of the taxes due. Poindexter,
114 U.S. at 273-274. The Court reversed and rendered
in favor of the plaintiff despite the tax collector acting
pursuant to state statute. Id. at 274, 306. The holding

25
extolled the Constitution’s paramount focus on the
fundamental rights of the people and denounced the
idea of official impunity:
“Of what avail are written constitutions whose
bills of right for the security of individual liberty
have been written, too often, with the blood of
martyrs shed upon the battle-field and the
scaffold, if their limitations and restraints upon
power may be overpassed with impunity by the
very agencies created and appointed to guard,
defend, and enforce them; and that, too, with the
sacred authority of law, not only compelling
obedience, but entitled to respect? And how else
can these principles of individual liberty and
right be maintained, if, when violated, the
judicial tribunals are forbidden to visit penalties
upon individual offenders, who are the
instruments of wrong, whenever they interpose
the shield of the State? The doctrine is not to be
tolerated. The whole frame and scheme of the
political institutions of this country, State and
Federal, protest against it. Their continued
existence is not compatible with it.” Id. at 291.
The well-established rule of strict liability of public
officials before and near the time of § 1983’s enactment
continued into the early twentieth century in Myers v.
Anderson. Myers, 238 U.S. at 378. The plaintiffs in
Myers were three black citizens of Maryland who
attempted to register to vote but were denied by
election officials. Id. at 377-378.

26
The election officials based their registration denial
on state law that essentially prohibited African
Americans from voting and because the officials were
acting in good faith in accordance with the law, they
were immune. Myers, 238 U.S. at 378-380. The Court
held the officials liable, rejecting their immunity
claims: “[t]he non-liability in any event of the election
officers for their official conduct is seriously pressed in
argument, and it is also urged that in any event there
could not be liability[.]” Id. at 378-379, 382; see also
Anderson v. Myers, 182 F. 223, 226 (C.C.D. Md. 1910)
(Defendants’ grounds for demurrer, ground number
(3)).
As these cases demonstrate, the strict rule of
liability for governmental officers was what was well
established in America at common law when § 1983
was enacted.
3. Statutory construction and common law do not
support the current qualified immunity doctrine nor a
blanket good-faith defense. This should not come as a
surprise because “there is a growing, cross-ideological
chorus of jurists and scholars urging recalibration of
contemporary immunity jurisprudence.” Zadeh, 928
F.3d at 480 (Willett, J., concurring in part and
dissenting in part) (Citations omitted).
Many members of the federal judiciary have joined
their voice to this chorus. Rodriguez v. Swartz, 899
F.3d 719, 732 n.40 (9th Cir. 2018); Morrow v.
Meachum, 917 F.3d 870, 874 n.4 (5th Cir. 2019);
Thompson v. Cope, 900 F.3d 414, 421 n.1 (7th Cir.
2018); Thompson v. Clark, No. 14-CV-7349, 2018 U.S.
Dist. LEXIS 105225, at *26-27 (E.D.N.Y. 2018).

27
Current and former members of the Court have also
expressed doubt about current immunity
jurisprudence. Wyatt v. Cole, 504 U.S. 158, 170 (1992)
(Kennedy, J., concurring) (“In the context of qualified
immunity for public officials, however, we have
diverged to a substantial degree from the historical
standards.”); Ziglar v. Abbasi, 137 S. Ct. 1843, 1871
(2017) (Thomas, J., concurring in part and concurring
in the judgment) (“Because our analysis is no longer
grounded in the common-law backdrop against which
Congress enacted the 1871 Act, we are no longer
engaged in ‘interpret[ing] the intent of Congress in
enacting’ the Act.”) (Citations omitted).
Finally, legal scholars overwhelmingly support
elimination, or significant revision of qualified
immunity. See, e.g., generally, Baude, supra, 106 Cal.
L. Rev. 45; Kinports, supra, 100 Minn. L. Rev.
Headnotes 62; John C. Jeffries, Jr., The Liability Rule
for Constitutional Torts, 99 Va. L. Rev. 207 (2013);
Joanna C. Schwartz, The Case Against Qualified
Immunity, 93 Notre Dame L. Rev. 1797 (2018); James
E. Pfander & Jonathan L. Hunt, Public Wrongs and
Private Bills: Indemnification and Government
Accountability in the Early Republic, 85 N.Y.U. L. Rev.
1862 (2010).
At this point, the sound of the choir against the
current immunity jurisprudence has become piercing,
with merit as demonstrated. Former iterations of the
Court created the doctrine of qualified immunity,
therefore it’s up to the current Court to address this
serious issue to stop the continued erosion of the
people’s fundamental constitutional rights.

28
C. Public Policy, officer accountability, and
implicit bias.
Beyond statutory construction and the standards of
official liability at the time of § 1983’s enactment, the
Court also justified its creation of qualified immunity
on assumptive public policy considerations. While these
public policy considerations may have appeared
intuitive, they do not survive empirical analysis.
1. Essentially, the primary public policy rationale
for creating qualified immunity was that a public
official could not effectively carry out their official
duties if they were subjected to personal liability and
the associated burdens of litigation for actions taken in
their official capacity. See, e.g., Harlow, 457 U.S. at
806, 814, 817-818; Scheuer, 416 U.S. at 240; Forrester
v. White, 484 U.S. 219, 223 (1988). Although this
consideration was assumptive, the decades that have
gone by have provided insight into the merits of the
policy rationale. Professor Joanna C. Schwartz
conducted a study which reviewed the indemnification
practices, from 2006 to 2011, of law enforcement
officers from more than eighty police departments,
including twelve of the country’s twenty largest police
departments, encompassing approximately 20% of all
law enforcement officers nationwide. Joanna C.
Schwartz, Police Indemnification, 89 N.Y.U. L. Rev.
885, 889 (2014). Schwartz’s study revealed that, despite
the Court’s policy concerns, the almost unanimous
practice was for total and complete indemnification of
the liable officer. Schwartz, 89 N.Y.U. L. Rev. at 890,
912-913. Officers, in the largest forty-four jurisdictions
reviewed, did not contribute to 99.59% of the

29
settlements or judgments in which they were involved.
Ibid. Further, in these largest departments, the total
amount of actual officer contribution only constituted
.02% of the total judgment and settlement amounts
reviewed. Ibid. The comprehensive study also
concluded that this near-absolute indemnification
practice was also the standard in the thirty-seven small
and mid-size departments reviewed, where none of the
liable officers contributed at all. Id. at 915. Finally,
Professor Schwartz concluded that based on the
evidence available, almost all officers subject to a claim
were provided free legal representation by their
department, union, city, or county.2 Id. at 915-916.
At least one member of the Court identified these
indemnification practices over twenty years ago. See
Board of Cty. Comm’rs of Bryan Cty. v. Brown, 520 U.S.
397, 436 (1997) (Breyer, J., dissenting) (Providing
examples of fifteen different states that had
indemnification statutes at the time of the opinion in
1997).
Near-absolute indemnification practices have also
become the standard for federal law enforcement
officers. See James E. Pfander, Alexander A. Reinert &
Joanna C. Schwartz, The Myth of Personal Liability:
Who Pays When Bivens Claims Succeed, at p. 6

2

This practice is well known to petitioners, here, as respondents,
officers Flaig and Sanchez, without making a request, had a unionprovided attorney waiting for them at police headquarters before
their own arrival, within hours of killing Norman Cooper.
ROA.1218 (at pp. 26-28), ROA.1283 (at pp. 22-23).

30
(February 27, 2019; last revised September 6, 2019)3;
see also Cornelia T.L. Pillard, Taking Fiction Seriously:
The Strange Results of Public Officials’ Individual
Liability Under Bivens, 88 Geo. L.J. 65, 77-78. Federal
officers are completely indemnified by the federal
government over 95% of the time when there is a
settlement or judgment against the officer and the total
monetary contribution made by the officers constituted
less than 1% of the total amounts paid out. Id. at pp. 56 (citing Schwartz, N.Y.U. L. Rev. at 913).
Based on the empirically substantiated practice of
near-absolute indemnification of both state and federal
officers, the Court’s assumptive public policy rationale
for the deterrent effects of official personal liability is
unfounded.
As the Court has previously held, “The first
consideration [‘of subjecting to liability an officer who
is required, by the legal obligations of his position, to
exercise discretion’] is simply not implicated when the
damages award comes not from the official’s pocket,
but from the public treasury.” Owen, 445 U.S. at 654
(partially quoting Scheuer, 416 U.S. at 240) (Italics
added). Further, the second public policy
consideration—“the danger that the threat of such
liability would deter his [public official’s] willingness to
execute his office with the decisiveness and the
judgment required by the public good”—is dependent on
3

Stanford Law Review, Forthcoming; Northwestern Public Law
Research Paper No. 19-05; UCLA School of Law, Public Law
Research
Paper No. 19-11. Available at:
SSRN: https://ssrn.com/abstract=3343800 or http://dx.doi.org/10.
2139/ssrn.3343800.

31
the existence of the first consideration, “of subjecting to
liability an officer[.]” Ibid. (Italics added).
Another less cited assumptive policy consideration
is that capable citizens “might be deterred from seeking
office if heavy burdens upon their private resources
from monetary liability were a likely prospect during
their tenure.” Wood, 420 U.S. at 320 (Italics added).
Again, because this consideration is dependent on the
existence of subjecting an official to personal liability,
“[s]uch fears are totally unwarranted, of course, once
the threat of personal liability is eliminated.” Owen,
445 U.S. at 654 n.38 (Italics added).
Consistent with the Court’s statutory construction
and established common-law immunities assumptions,
the assumptive public policy considerations are not
supported.
2. Long ago the Court recognized that “[p]ower is a
heady thing; and history shows that the police acting
on their own cannot be trusted.” McDonald v. United
States, 335 U.S. 451, 456 (1948) (McDonald was a
criminal case involving unlawfully seized evidence
without a search warrant). The Court’s statement
actually speaks to a broader, though often ignored,
truth; power on its own cannot be trusted. The Court
has previously recognized, though with little emphasis,
that one important aspect of 42 U.S.C. § 1983 is “the
need to hold public officials accountable when they
exercise power irresponsibly[.]” Pearson, 555 U.S. at
231; see also Harlow, 457 U.S. at 807.

32
The public has demonstrated their discontent with
the current state of unjustified and avoidable deaths of
citizens at the hands of those that are expected to
protect and serve all citizens. These unnecessary
deaths have resulted in large protests and civil
disobedience. See, e.g., Jasmine C. Lee et al., At Least
88 Cities Have Had Protests in the Past 13 Days Over
Police Killings of Blacks, N.Y. Times (July 16, 2016)4.
All governmental officials inherently derive their power
from the people and not the other way around. The
people’s central complaint is an absence of
accountability. This is especially true for the black
community that is the most affected. See, e.g., Pew
Research Ctr., Sharp Racial Divisions in Reactions to
Brown, Garner Decisions, p. 2 (2014).5
Law enforcement accountability has been perversely
left up to law enforcement themselves. Unsurprisingly,
self-policing the police, has largely been an act in
futility as internal discipline is virtually illusory. “Even
when individuals do report misconduct, there is a
significant likelihood it will not be treated as a
complaint and investigated.” See, e.g., U.S. Dep’t of
Justice, Investigation of the Ferguson Police
Department, p. 83 (Mar. 4, 2015)6. As such, § 1983 is
the only legitimate means available to address law
4

Available at https://www.nytimes.com/interactive/2016/07/16/
us/protesting-police-shootings-of-blacks.html (subscription) or
https://perma.cc/ES6C-XMWS.
5

Available at http://www.pewresearch.org/wp-content/uploads/
sites/4/2014/12/12-8-14-Police-Race-release.pdf.
6

Available at https://perma.cc/XYQ8-7TB4.

33
enforcement accountability. But the Court’s “one-sided
approach to qualified immunity transforms the
doctrine into an absolute shield for law enforcement
officers, gutting the deterrent effect of the Fourth
Amendment.” Kisela v. Hughes, 138 S. Ct. 1148, 1162
(2018) (Sotomayor, J., dissenting) (Italics added).
Police officers, themselves, have demonstrated their
own concerns with accountability. A 2017 Pew
Research Center survey of more than 8,000 police
officers, found that 72% of officers did not believe that
fellow officers who engage in poor practices are held
adequately accountable. See Rich Morin et al., Pew
Research Ctr., Behind the Badge, p. 40 (2017)7.
§ 1983 claims provide not only a means of
accountability but are also crucial in providing
information that assists the evolution of law
enforcement in adopting training and policies that
address unconstitutional and unacceptable conduct by
officers. See Joanna C. Schwartz, What Police Learn
from Lawsuits, 33 Cardozo L. Rev. 841, 844-845 (2012).
But lack of accountability is also creating a
significant collateral effect, the people’s understandable
and growing belief they are actually less than a citizen
in comparison to an officer. This belief is also harmful
to police officers because “when a sense of procedural
fairness is illusory, this fosters a sense of second-class
citizenship, increases the likelihood people will fail to
comply with legal directives, and induces anomie in
some groups that leaves them with a sense of

7

Available at https://pewrsr.ch/2z2gGSn.

34
statelessness.” Fred O. Smith, Jr., Abstention in a Time
of Ferguson, 131 Harv. L. Rev. 2283, 2356 (2018)
(Citations omitted). As an example, unlike the
respondent officers who had an attorney waiting for
them at police headquarters without even making a
request, Nathan Cooper who had just witnessed his
brother’s death, requested an attorney but was told
that he had to provide a statement without an
attorney. ROA.1173 (pp. 111-112).
How vital is equal treatment and the public’s trust
of law enforcement or any public official? Mr. Chief
Justice John G. Roberts, Jr. recently addressed this
question: “As the New Year begins, and we turn to the
tasks before us, we should each resolve to do our best
to maintain the public’s trust that we are faithfully
discharging our solemn obligation to equal justice
under law.” Chief Justice John G. Roberts, Jr., 2019
Year-End Report on the Federal Judiciary, p. 4
(December 31, 2019)8.
3. Briefly, it is also important to address an
uncomfortable and usually avoided subject when
evaluating these important cases and doctrines that
impact the people’s fundamental constitutional rights,
implicit bias.
In addressing these paramount issues of the
people’s rights, it is important for the Court, and the
judiciary as a whole, to step back and look inside
themselves to identify their own biases that may,
unconsciously, be pivotal to their analysis and decisions
8

Available at https://www.supremecourt.gov/publicinfo/yearend/2019year-endreport.pdf.

35
in § 1983 cases. For without identifying and
acknowledging our own inherent biases how can we
fairly and independently make decisions that have an
exponential impact on the public.
For instance, recent, comprehensive analysis
reflects that there is a significant divergence in the
determination of constitutional claims and qualified
immunity depending on whether a federal judge was
appointed by a Democratic or Republican President.
See Aaron L. Nielson & Christopher J. Walker,
Strategic Immunity, 66 Emory L.J. 55, 63-64 (2016).
Accordingly, the Court should strive to view this
request for reconsideration of the qualified immunity
doctrine through the proper lens, keeping close, Mr.
Chief Judge John G. Roberts, Jr.’s 2019 year-end
report, and grant this petition. See Roberts, supra, at
p. 4.
CONCLUSION
The question therefore becomes, now that we know
these policy considerations were based on invalid
assumptions, what should the Court do with the
qualified immunity jurisprudence it created? Simply
following § 1983’s text as written with consideration of
the important rights it was intended to protect is the
truest and most honest approach.
Alternatively, the Court may choose to overrule or
modify Mitchell v. Forsyth to the extent it authorizes
interlocutory appeals of police officers in excessive force
cases. Fourth Amendment cases are fact intensive and
therefore constitute a class of cases where early
discovery should be encouraged not discouraged.

36
These and other potential solutions should be fully
explored in merits briefing to remedy the current state
of civil rights jurisprudence that currently works in
derogation of the people’s rights instead of protecting
them.
The Court should grant the petition.
Respectfully submitted.
EDWARD L. PIÑA
Counsel of Record
MATTHEW N. GOSSEN
Edward L. Pina & Associates, P.C.
8118 Datapoint Drive
San Antonio, Texas 78229
(210) 614-6400
epina@arielhouse.com
Counsel for Petitioners

